 Office of Inspector General
      Audit Report


ADS-B BENEFITS ARE LIMITED DUE TO A
LACK OF ADVANCED CAPABILITIES AND
     DELAYS IN USER EQUIPAGE
      Federal Aviation Administration

       Report Number: AV-2014-105
      Date Issued: September 11, 2014
           U.S. Department of
                                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: ADS-B Benefits Are Limited Due to a                                     Date:    September 11, 2014
           Lack of Advanced Capabilities and Delays in User
           Equipage
           Federal Aviation Administration
           Report No. AV-2014-105

  From:    Matthew E. Hampton                                                           Reply to
                                                                                        Attn. of:   JA-10
           Assistant Inspector General
            for Aviation Audits

    To:    Federal Aviation Administrator

           Since fiscal year 2004, the Federal Aviation Administration (FAA) has been
           developing the Next Generation Air Transportation System (NextGen) to increase
           the safety and efficiency of the National Airspace System (NAS). Central to
           FAA’s NextGen plans is its goals to transition from a ground-based radar system
           to a satellite-based system for monitoring and managing air traffic. To execute this
           transition, FAA is developing the Automatic Dependent Surveillance-Broadcast
           (ADS-B) system, 1 which is expected to leverage new and existing technologies to
           provide aircraft information to pilots and air traffic controllers during all phases of
           flight. Full implementation of ADS-B requires the installation of a nationwide
           network of ground-based radio stations, aircraft equipped with ADS-B rule-
           compliant avionics, 2 and the integration of ADS-B data into FAA’s air traffic
           control automation systems.

           FAA plans to spend approximately $1.7 billion on ADS-B through 2014, and an
           additional $1 billion between 2014 and 2020. In October 2010, 3 we reported that
           FAA faces significant risks and challenges in finalizing ADS-B’s technical
           requirements, managing its cost and schedules, and encouraging airspace users to
           equip with ADS-B avionics.

           1
             ADS-B is considered “automatic” because no external interrogation is required and “dependent” because it relies on
           equipment on board aircraft to transmit flight information to controllers and pilots.
           2
             To be rule-compliant with FAA’s ADS-B Out mandate ADS-B avionics must meet minimum operational performance
           standards as defined by the RTCA, a Federal advisory committee. RTCA standards documents DO-260B for major air
           carriers operating in the 1090 MHZ frequency, and DO-282B for general aviation users operating in the 978 MHZ
           frequency.
           3
             FAA Faces Significant Risks in Implementing ADS-B Program and Realizing Benefits (OIG Report Number AV-
           2011-002), October 12, 2010. OIG reports are available on our Web site at http://www.oig.dot.gov/.
                                                                                                                      2


At the request of the Chairman and Ranking Member of the House Committee on
Appropriations, Subcommittee on Transportation, Housing and Urban
Development, and Related Agencies, we conducted a follow-up audit on FAA’s
progress in implementing ADS-B. This follow-up audit also addresses a mandate
from the FAA Modernization and Reform Act of 2012 4 that we conduct a review
of the ADS-B program. Accordingly, we (1) assessed FAA’s progress toward
deploying and testing the ADS-B ground system; (2) identified the capabilities and
benefits ADS-B will provide to users; and (3) estimated ADS-B’s current cost,
schedule, and planned benefits as measured against the original program goals.

We conducted this audit in accordance with generally accepted Government
auditing standards. Exhibit A details our scope and methodology.

RESULTS IN BRIEF
FAA has deployed the ADS-B ground infrastructure, but controller and pilot use
of ADS-B information throughout the NAS remains years away. As of April 2014,
FAA reported that the ADS-B ground infrastructure has been completed with the
deployment of 634 ground radio stations. However, only limited ADS-B services
are being provided to pilots and air traffic controllers, due in part to the fact that
FAA has yet to complete modernization of its air traffic automation systems to
accommodate ADS-B technology. In addition, FAA’s operational testing
identified problems related to the display of ADS-B data on FAA’s air traffic
control automation systems. According to FAA, a lack of sufficient numbers of
users who have equipped with ADS-B avionics makes it difficult to test the entire
system—ground infrastructure, aircraft avionics, and controller automation—to
ensure it can be used to safely manage air traffic in congested airspace. Finally,
FAA has not yet fully developed a system to monitor the performance and
operational safety of the ground equipment and help avoid and resolve outages.

While ADS-B will provide some useful services—particularly in areas with no
radar coverage—the system’s initial capabilities and benefits are limited. For
example, ADS-B’s weather and traffic broadcast services are primarily designed
for general aviation users, and FAA warns that pilots should not rely on ADS-B
information to separate themselves from and avoid other aircraft. According to
FAA, airspace users will gain the most benefits with the advanced capabilities of
ADS-B In, 5 which is expected to provide pilots with enhanced merging and
spacing capabilities for airport arrivals, including for closely spaced runways.
However, requirements for ADS-B In advanced capabilities continue to evolve,
creating significant challenges related to developing and certifying ADS-B In
avionics, maturing advanced capabilities, and partnering with airlines to verify and

4
 P.L. 112–95, FAA Modernization and Reform Act of 2012, signed into law on February 14, 2012.
5
  ADS-B In capability allows for the display of flight information in the cockpit, such as allowing pilots to “see” other
aircraft and obtain critical information sent from ADS-B ground infrastructure.
                                                                                     3


validate benefits and gain experience through demonstration projects. As a result,
FAA is not well positioned to mandate the use of ADS-B In as directed by
Congress for the foreseeable future.

The final cost and timeline needed to fully implement ADS-B—and achieve the
extent of its benefits—remain uncertain. FAA currently estimates the cost of the
program (through 2035) to be $4.5 billion, an increase of $400 million from
original estimates. Ongoing adjustments to key program activities further increase
the risk of future cost and schedule growth. Ultimately, FAA determined that the
total costs for the current ADS-B program (ADS-B Out and current broadcast
services), including funding that has already been spent, now outweigh the
projected benefits of the program by as much as $588 million. FAA states that
future investment decisions will focus more on the advanced capabilities of
ADS-B and significantly improve the cost/benefit ratio for the program, but it
remains uncertain how and when FAA will implement these capabilities and at
what cost.

We are making a series of recommendations to assist FAA to better manage risks
and reduce uncertainty with the implementation of the ADS-B program.

BACKGROUND
ADS-B is designed to use satellite-based technology, including global positioning
systems (GPS), and a network of ground stations to transmit position information
more frequently and accurately than ground-based radars (see figure 1).
Specifically, ADS-B is expected to provide reports once every second, compared
to ground-based radar that generate reports once every 5 to 12 seconds, and unlike
ground-based radar, ADS-B’s accuracy does not change based on the distance
between the aircraft and the sensor. FAA anticipates that ADS-B will ultimately
replace ground-based radar because ADS-B-equipped aircraft can provide
controllers and pilots in other aircraft with faster updates of important flight
information, such as aircraft identification, position, altitude, direction, and speed.
                                                                                     4


Figure 1. ADS-B Schematic




Source: FAA


ADS-B consists of two services: ADS-B Out and ADS-B In.

• ADS-B Out will allow aircraft to broadcast flight position data to controllers
  on the ground. ADS-B Out is expected to improve aircraft tracking, especially
  in areas where radar is ineffective due to terrain and other ground barriers,
  impractical, or cost prohibitive.

• ADS-B In will display flight information in the cockpit, such as the location of
  other aircraft. Allowing pilots to “see” nearby aircraft and obtain other critical
  information sent from ADS-B’s ground infrastructure is expected to further
  enhance safety.

FAA is planning to implement two ADS-B Out and six ADS-B In applications in
the near term. (See exhibit B for a full list of ADS-B’s initial applications and their
capabilities.) According to FAA, future applications will be defined as the ADS-B
program matures and requirements are identified for capabilities that provide
benefits to FAA and airspace users.
                                                                                                                5


In May 2010, FAA published the final rule mandating that most NAS users equip
with ADS-B Out avionics by 2020. 6 To accelerate NextGen and achieve the full
range of benefits, the FAA Modernization and Reform Act of 2012 directed FAA
to begin a rulemaking process for ADS-B In with the goal of mandating the new
technology in 2020 for aircraft operating in capacity-constrained airspace. FAA
has established an internal board to define ADS-B In requirements and is currently
exploring various rulemaking options for ADS-B as well as other NextGen
technologies.

In 2007, FAA awarded a contract to ITT Corporation for $1.8 billion—if all
options are exercised through 2025—to develop the ADS-B ground infrastructure
and begin broadcasting services. FAA’s contract with ITT is a service-based
contract, meaning the Agency will not own the ADS-B ground infrastructure—a
departure from FAA’s traditional approach to major acquisitions where the
Government owns the system. In 2010, we also reported that the ADS-B contract
structure bundles and comingles tasks and costs, making it difficult for decision
makers to track costs. 7 We also reported that basic management controls over the
ADS-B contract were lacking.

DESPITE PROGRESS WITH THE GROUND INFRASTRUCTURE
ADS-B REMAINS YEARS AWAY FROM FULL IMPLEMENTATION
FAA has deployed the ADS-B ground infrastructure, but the ability for controllers
and pilots to use ADS-B information throughout the NAS remains years away.
Notably, FAA has yet to resolve significant hazards identified during operational
testing or conduct more rigorous testing of the entire system to determine whether
all ADS-B elements will perform as expected. As a result, FAA has not authorized
the exclusive use of ADS-B information to manage air traffic across the NAS.
Further, the Agency’s system for monitoring the performance of the ADS-B signal
remains under development.

FAA Has Made Progress Deploying the ADS-B Ground Infrastructure
But Has Not Sufficiently Tested the Entire System
Since awarding the ADS-B contract in August 2007, FAA has primarily focused
on deploying the nationwide ground infrastructure for receiving and broadcasting
information. In April 2014, FAA reported that the ADS-B ground infrastructure
was complete, with 634 ground radio stations deployed—a reduction from FAA’s
original projection of 792 radio stations. 8 However, the ADS-B program office has
since identified coverage gaps, and FAA identified the need for an additional

6
  14 CFR Part 91, Automatic Dependent Surveillance - Broadcast (ADS–B) Out Performance Requirements To Support
Air Traffic Control (ATC) Service.
7
  See footnote 3.
8
  The current ground infrastructure is designed to provide ADS-B information to air traffic controllers and pilots
throughout the contiguous United States, Gulf of Mexico, and Alaska.
                                                                                                                             6


200 radio stations. Specifically, FAA’s fiscal year 2014 budget request identified
$258 million in additional funding for what the program office describes as new
requirements to address the coverage gaps. 9

Despite FAA’s progress in deploying the ground infrastructure, until users
purchase and install new ADS-B Out avionics, the ground infrastructure provides
only limited benefit. While the current ground infrastructure is designed to provide
ADS-B information to air traffic controllers and pilots throughout the contiguous
United States, Gulf of Mexico, and Alaska, FAA estimates that only 3 percent of
major air carriers and 10 percent of general aviation users will be equipped by the
end of fiscal year 2014. Moreover, airspace users are not required to equip with
ADS-B Out avionics until 2020.

In addition, ADS-B’s ground infrastructure will not provide benefits until FAA
upgrades or replaces the automation systems that controllers rely on to manage air
traffic. FAA currently estimates that ADS-B will be deployed at 230 locations—
which include 24 en route facilities (20 in the contiguous United States, and 4 in
Alaska, Hawaii, and the U.S. territories); 159 terminal facilities; 44 airports; and
3 oceanic sites. 10 Until FAA modernizes the automation systems at these locations,
controllers will not be able to use ADS-B to safely separate air traffic. The Agency
does not plan to complete these upgrades until 2019.

FAA Has Not Fully Resolved Problems Identified in ADS-B Operational
Testing
Between 2010 and 2013, FAA conducted a series of independent operational
assessments at the program’s four key sites 11 and identified problems related to the
display of ADS-B data on FAA’s air traffic control automation systems. For
example, at the Louisville and Philadelphia sites, ADS-B dropped or never
displayed targets—electronic indicators of an aircraft’s current location on
controller displays. In addition, ADS-B targets would split on controller displays,
resulting in false alerts about potential separation losses between aircraft. While
the assessment did not identify the root causes of the problems, the team
concluded that the two terminal automation systems that they tested 12 were not
operationally ready to accommodate ADS-B. Despite these ongoing weaknesses,


9
   Federal Aviation Administration FY 2014 President’s Budget Submission, Section 7, Immediate Transportation
Investment (ITI), ADS-B Radio Station Expansion.
10
   En route facilities control high altitude air traffic above 18,000 feet, terminal control facilities control air traffic from
the surface up to 10,000, and airports control air traffic on the airport surface up to 4,000 feet within a 5 nautical mile
radius of the airport.
11
   The assessments focused on how well controller automation systems in terminal facilities and air traffic control
centers could process and display ADS-B information for managing aircraft at the key sites which include facilities in
Louisville, Philadelphia, Houston, and Alaska. These assessments provide FAA decision makers with an independent
determination of operational readiness in support of production and in-service decision.
12
   These two terminal air traffic control systems are the Common Automated Radar Terminal System IIIE (CARTS
IIIE) and Standard Terminal Automation Replacement System (STARS).
                                                                                                                    7


FAA declared the sites ready for initial operations and accepted the system from
the contractor.

Regardless, other decisions that are critical to resuming operational testing have
yet to be made. 13 For example, FAA has not completed required safety
certifications for each of its air traffic control systems to allow the use of ADS-B
surveillance data in radar-controlled airspace without radar. In addition, FAA has
yet to develop and implement rules and procedures to allow controllers to use
ADS-B exclusively to separate and control air traffic in congested airspace. These
rules and procedures cannot be developed until technical issues are resolved. In
the meantime, FAA’s current policy states that controllers can only use ADS-B
services for separating aircraft if another surveillance source such as radar is
“fused” with ADS-B data.

FAA Has Not Sufficiently Tested the Entire ADS-B System
Comprehensive testing of all ADS-B elements—ground infrastructure, avionics,
and controller automation systems—is critical to determine whether the system
will improve air traffic flow and ensure that it does not inadvertently introduce
new safety hazards. To date, FAA has not conducted this end-to-end 14 testing.
Instead, it has focused on operational testing on specific air traffic automation
systems and ADS-B-related problems. For example, FAA’s 2010 operational
assessments focused exclusively on how well FAA automation systems could
process and display ADS-B information—not on whether identified problems
were traceable to aircraft avionics, the ADS-B ground system, FAA automation
systems, or a combination of these components.

According to FAA, end-to-end testing requires a significantly higher level of
aircraft equipage to determine whether the system is meeting operational and
technical requirements. Based on FAA’s estimate, sufficient numbers of aircraft
are not expected to be equipped with ADS-B Out avionics until at least 2018.

In addition, FAA continues to face security challenges related to cyber threats and
vulnerabilities of using ADS-B to manage air traffic, including the security of the
ADS-B infrastructure and aircraft avionics. Based on concerns raised by the
Department of Defense and airspace users, FAA plans to conduct detailed
vulnerability testing of ADS-B that will examine potential dangers, such as


13
   In March 2013, the assessment team completed a follow-up evaluation of the integration of ADS-B with the En
Route Automation Modernization (ERAM) system at the Houston Center, which controls air traffic in radar and non-
radar airspace in the Gulf of Mexico. The team reported that they were not able to independently assess the resolution
of the problems identified in the earlier tests and that ADS-B could be used to control traffic in only the non-radar
airspace in the Gulf of Mexico.
14
   End-to-end testing refers to testing of component-based systems: ground systems, air traffic automation system, and
avionics. It verifies that the each integrated component works correctly as part of the overall system, and that the
components of the system work as intended.
                                                                                                                    8


jamming of ADS-B data links and spoofing. 15 This assessment will result in action
plans for ways to improve security. It could also significantly impact FAA plans
for implementing and using ADS-B throughout the NAS. (We are conducting a
separate audit to review ADS-B security concerns. 16)

FAA Has Yet To Fully Develop Its ADS-B Monitoring System
FAA does not own, operate, or maintain the ADS-B ground infrastructure and
relies heavily on the contractor’s system for monitoring ADS-B signals. To
provide critical oversight of this component, FAA is developing and deploying the
Surveillance Broadcast Services (SBS) Monitor—a system intended to assess the
performance and operational safety of the ground equipment at each ADS-B site to
help avoid and resolve outages.

In August 2011 17 we reported that FAA was gaining valuable experience in using
the SBS Monitor but faced challenges related to the lack of staffing requirements,
gaps in communication, and unclear procedures for resolving ADS-B outages.
Other issues included difficulties with establishing real-time notification of
ADS-B service status and training. While FAA was responsive to our concerns,
the Agency has yet to determine the level of staffing it will need to adequately
analyze the large amount of real-time information provided by the ADS-B ground
station.

In addition, the SBS Monitor still lacks the capability to fully assess and report on
ADS-B system performance. For example, in April 2013, the SBS Monitor did not
detect ground station outages in Alaska that resulted in dropped signals from
ADS-B equipped aircraft and the loss of information on controller displays. The
problem was only discovered through communications between controllers and
pilots. Similarly, the SBS Monitor did not detect that the ADS-B ground system
was transmitting outdated weather information to pilots. Instead, FAA
troubleshooting found the problem.

According to SBS Monitor officials, additional development will be required to
improve the system’s ability to monitor the health of ADS-B data transmission.
Specifically, FAA has an ongoing effort to integrate its Wide Area Augmentation
System 18 with the SBS Monitor to improve performance and reduce false alarms.


15
   By its nature ADS-B is an unsecure system that lacks the encryption to keep its communications private and the
authentication necessary to prevent spoofed or faked communications from mixing with real ones, potentially allowing
hackers to fabricate or control data and even entire aircraft.
16
   OIG Announcement Memo, “Security Controls of the Automatic Dependent Surveillance-Broadcast System,”
January 23, 2013. Our audit objective is to evaluate how security issues are being addressed in the overall design and
implementation of the ADS-B system.
17
   FAA Oversight Is Key For Contractor-Owned Air Traffic control Systems That Are Not Certified (OIG Report
Number AV-2011-149), August 4, 2011.
18
   FAA’s Wide Area Augmentation System is a satellite-based navigation system that augments DOD’s GPS satellite
signals.
                                                                                 9


FAA officials also believe that further work will be needed to add capabilities to
monitor the quality of the information transmitted, in addition to service output.

FAA’S CURRENT LACK OF ADVANCED CAPABILITIES AND
BENEFITS HAVE DISCOURAGED USER INVESTMENT IN ADS-B
The successful implementation of ADS-B depends on FAA’s ability to deliver
capabilities that encourage airspace users to equip with ADS-B avionics. While
ADS-B provides some useful services, these capabilities have been limited,
discouraging some users from investing in ADS-B. At the same time,
requirements for ADS-B In’s advanced capabilities continue to evolve, creating
significant challenges related to certifying ADS-B avionics, maturing advanced
capabilities, and partnering with airlines to verify and validate benefits and gain
experience through demonstration projects.

ADS-B Provides Some Useful Services, but Benefits Likely Will
Remain Limited by the 2020 Equipage Mandate
ADS-B’s current capabilities provide some services and applications for users
equipped with initial ADS-B avionics. (See exhibit B for a list of ADS-B’s initial
capabilities and the status of their usage.) For example, ADS-B is proving
beneficial in areas with limited or no radar coverage, such as locations in Alaska
and the Gulf of Mexico. In the Gulf, ADS-B has allowed air traffic controllers at
Houston Center to route equipped low-altitude helicopters directly to their
destination during bad weather. JetBlue Airlines is also testing a new ADS-B
operational procedure in the Gulf of Mexico that allows flights between Miami
and San Francisco to be rerouted to avoid bad weather, reduce flight time, and
save fuel.

However, FAA estimates that only 3 percent of major air carriers and 10 percent
of general aviation users will be equipped with ADS-B avionics by the end of
fiscal year 2014. Further, ADS-B’s current capabilities are limited. For example,
while properly equipped general aviation users can receive weather and other
traffic information to improve their situational awareness using ADS-B broadcast
services—that is, awareness of their current location and the location of other
nearby aircraft—FAA notes that these services are for “advisory use only.” In
other words, pilots should not and cannot rely on ADS-B information to separate
themselves from and avoid other aircraft.

Despite this warning, FAA’s outreach may not be sufficient to ensure pilots use
ADS-B’s broadcast services appropriately. According to the Aircraft Owners and
Pilots Association (AOPA), some general aviation pilots are unaware of ADS-B’s
limitations and how these services can and should be used. For example, pilots
relying on ADS-B data have reported that they inadvertently flew their aircraft
                                                                                                                   10


into restricted airspace that was either unmarked or incorrectly located on their
ADS-B devices. Subsequently, FAA cited these pilots with violations. Based on a
limited review of the National Aeronautics and Space Administration’s (NASA)
Aviation Safety Reporting System, 19 we found eight incident reports filed by
pilots from August 2012 through May 2013 that identified some type of issue
relating to ADS-B Out advisory services (see exhibit D). Concerns such as these
not only suggest significant safety risks, but could degrade users’ confidence in
the system and the industry’s willingness to invest.

Major air carriers have been especially reluctant to invest in ADS-B’s costly
avionics because they currently have little, if any, benefits for them. While major
carriers typically take off and land in the NAS’s most crowded airspaces—and,
therefore, have the most to gain from ADS-B’s expected benefits—the airline
industry’s on-board weather radar, electronic flight information systems, and
collision avoidance systems provide the same information that ADS-B broadcast
services currently offer. As the program advances, FAA expects ADS-B to
provide major carriers with more benefits. For example, FAA expects ADS-B Out
will eventually provide “radar-like” separation services for airlines. Coupled with
new automation for air traffic control management, this could allow for more
efficient merging and spacing of aircraft within existing separation standards and
improve the detection of conflicts between aircraft. However, FAA has not fully
quantified these projected ADS-B benefits or determined how to use new
procedures to enhance airspace capacity and reduce delays. Without this
information, air carriers will likely remain reluctant to invest in ADS-B.

FAA’s Certification Process for ADS-B Avionics Is Lengthy and Lacks
Sufficient Oversight
Before users can equip with ADS-B avionics, FAA must certify the avionics
design as well as its manufacturing and installation process (see figure 2).
According to industry stakeholders, certification of avionics design and
manufacturing process has been time-consuming. For example, FAA did not
approve the proposed manufacturing design for ADS-B Out avionics until 2012—
3 years after it approved the system’s minimum operating standards. The avionics
manufacturers we spoke with agreed that FAA can take from 3 to 5 years to
approve the avionics’ design and manufacturing process. In addition, FAA must
approve any modifications that aircraft operators make to ensure the certified
avionics work with their aircraft’s unique requirements and design features, and
FAA must also approve operators’ installation of the avionics. 20 This additional
certification often takes 18 months or more.

19
   NASA’s ASRS database is the world's largest repository of voluntary, confidential safety information provided by
aviation's frontline personnel, including pilots, controllers, mechanics, flight attendants, and dispatchers.
20
   This refers to the Supplemental Type Certification (STC) process that allows users to make modifications and install
new equipment onto their specific aircraft type and configuration.
                                                                                         11


Figure 2. ADS-B Avionics Certification Process
       RTCA                                                                    Flight
       (joint            FAA          Manufacturers        Airspace         Standards
   industry/FAA                                           Users/FAA        District Office
     taskforce)
                       Develops        Produce ADS-B
    Recommends         standards          avionics       Apply for/issue   Certifies avionics
   ADS-B avionics                                         certifications   installation based
   requirements to                                                          on airworthiness
         FAA                                                                   standards




Source: FAA

Since the final rule on ADS-B was published in 2010, FAA has begun certifying
and approving ADS-B Out avionics design and installation based on the
performance standards established in the rule. However, the size of the ADS-B
effort is significant—FAA estimates that about 18,000 commercial and 223,000
general aviation aircraft will be impacted—and as more and more airspace users
begin to modify their aircraft and install new ADS-B avionics to meet FAA’s 2020
mandate, FAA will be challenged to maintain sufficient oversight of the industry.

FAA certification and flight standards officials have already identified problems
that could hinder the airline industry’s efforts to meet FAA’s mandate. Notably,
these officials raised concerns about regional inspectors’ understanding of FAA’s
certification and installation policy, and that a lack of understanding has led to
poor implementation. For example, FAA headquarters officials discovered that a
regional office approved the installation of ADS-B avionics on as many as 40 of
an operator’s aircraft, only to learn that the avionics had not been certified. Airline
industry officials have similarly raised concerns about meeting FAA’s 2020
mandate. Specifically, these officials noted that (1) rule-compliant avionics are
just becoming available and are in short supply, (2) the aircraft repair and avionics
industry may not be able to handle the capacity of ADS-B modifications and
installations, (3) compatibility issues between ADS-B and existing on-board GPS
and navigation systems may require avionics replacements, and (4) long-term
agreements that some airlines have entered into with specific avionics
manufacturers may create legal conflicts.

These delays and setbacks make the airline industry’s required financial
investment in ADS-B potentially even more costly. FAA currently estimates that it
will cost all airspace users about $4 billion to purchase and install new rule-
compliant ADS-B Out avionics. However, these estimates generally exclude costs
related to certification delays and technical errors, as well as costs associated with
taking aircraft out of service for the avionics installation.
                                                                                                                 12


Requirements for ADS-B In’s Advanced Capabilities Continue to
Evolve
Most NextGen benefits and new air-to-air surveillance capabilities rely on ADS-B
In and the cockpit display of the information ADS-B In generates. However,
significant development and operational testing of this new technology remain
before users can obtain these benefits. Furthermore, FAA’s 2010 decision to adopt
less stringent performance requirements for ADS-B Out may further hinder
progress in achieving ADS-B In benefits because the more advanced elements of
ADS-B In may require changes to the air and ground components of the system.

At its most basic level, ADS-B In is designed to enhance a flight crew’s situational
awareness of nearby aircraft. For the near term, FAA is focusing on capabilities
that allow pilots to maintain visual separation between aircraft in generally good
weather conditions. Future and more beneficial advanced ADS-B In applications
are expected to provide for operations on more closely spaced parallel runways
and air routes, and allow for advanced in-flight maneuvers such as aircraft
crossing and passing one another. These applications could boost airport arrival
rates.

The initial near-term ADS-B In capabilities that FAA is pursuing are consistent
with recommendations made by several aviation rulemaking committees (ARC).
For example, FAA is currently defining requirements for the Flight Deck Based
Interval Management and Spacing System—a new system expected to help pilots
maintain proper spacing between flights during routine operations in good to
marginal weather without changing the roles of pilots or controllers. FAA is also
developing new procedures for allowing properly equipped aircraft with trained
flight crews to climb and descend through various flight levels over the ocean.
FAA chose these capabilities, in part, because they are not expected to require
changes to ADS-B’s air and ground components.

However, operational and procedural issues have challenged FAA’s efforts to
fully define and stabilize the requirements for ADS-B In’s more advanced
capabilities. For example, a 2011 ARC report stated that FAA’s ADS-B In policies
and equipment standards for certification, operational approval, and ground
automation were inadequate for an investment decision. 21 These shortcomings
remain and complicate FAA’s rulemaking efforts—a process that the FAA
Modernization and Reform Act of 2012 directed FAA to complete over the next
several years, with the goal of mandating ADS-B In equipage on aircraft operating
in capacity constrained airspace by 2020. While it remains unknown when FAA
will stabilize ADS-B In’s requirements—or fully define its costs and benefits—it is
unlikely that FAA will be in position to mandate ADS-B In equipage in the


21
     A Report from the ADS–B In Aviation Rulemaking Committee to the Federal Aviation Administration, Sept. 30, 2011.
                                                                                                               13


foreseeable future given the complexity of the challenges that need to be
addressed.

The September 2011 ARC report also cautioned that plans for ADS-B In are not
effectively linked to other NextGen efforts that require industry investment, such
as data link communications for pilots and controllers—which will impact ADS-B
In capabilities. The report further stated that airspace users need a better
understanding of the interdependencies among NextGen technologies and whether
benefits increase if technologies are bundled together. In response, FAA is
exploring how these various technologies for communication, navigation, and
surveillance can be bundled in specific 5- to 7-year timeframes.

FAA Has Partnered With Airlines To Demonstrate ADS-B Capabilities
and Potential Benefits
FAA has entered into agreements with several U.S. airlines to develop and
demonstrate ADS-B In applications and procedures—a necessary step given the
many unknowns with developing the new cockpit technology. As part of these
agreements, FAA is providing funding to each airline for purchasing and installing
ADS-B avionics. 22

The demonstration projects cover a variety of ADS-B’s planned capabilities. For
example, US Airways installed ADS-B Out and In avionics and cockpit display
equipment 23 in its Airbus A330 aircraft to assess (1) the use of cockpit displays in
maintaining proper spacing between aircraft on arrivals and (2) in-trail procedures
for oceanic routes, which allow airplanes to move to optimal operational altitudes.
Similarly, FAA has partnered with United Airlines to equip 110 aircraft with
ADS-B Out avionics by 2017 to demonstrate the potential benefits of using ADS-B
in the Gulf of Mexico to reduce separation between high-altitude aircraft in non-
radar airspace from 120 to 5 nautical miles. Table 1 shows the status of FAA’s
demonstration projects and the types of capabilities carriers are pursuing.




22
  FAA has funded approximately $49 million to date on the demonstration projects.
23
   As part of the agreement FAA paid US Airways to install rule-compliant ADS-B Out and In avionics, Class 3
electronic flight bags, and software suites in 20 of their Airbus A330 aircraft to participate in the demonstration
program.
                                                                                                 14


Table 1. Carrier Status of ADS-B by Demonstration Project
In-Trail Procedures: Enables ADS-B equipped aircraft to climb or descend through altitudes
where current non-ADS-B separation standards would prevent desired altitude changes.
United           • Aircraft and operators guidance has been complete
                 • Plans to upgrade 12 aircraft to ADS-B rule-compliant avionics in 2015

US Airways       • Aircraft and operators guidance has been complete

Merging and Spacing: Allows pilots and air traffic controllers to achieve and maintain desired
spacing between aircraft.
US Airways       • Plans to upgrade 20 aircraft

UPS              • Plans to remove some of the ADS-B demonstration equipment by 2014 and
                   end participation

Cockpit Display of Traffic Information Assisted Visual Separation: Provides pilots a cockpit
display of ADS-B information improving their awareness of other traffic.
US Airways       • Aircraft and operator guidance completed for airborne and ground use of
                   Cockpit Display of Traffic Information

Flight Interval Management Spacing: Enables flight crews to establish and maintain precise
spacing relative to a preceding aircraft, which provides additional fuel savings and optimized
descent opportunities.
US Airways       • Avionics standards for the flight deck capability are scheduled to be
                   completed in 2014
East Coast Routes: Allows aircraft to fly in two major routes off the East Coast in the event that
typical radar coverage is not available.
Jet Blue         • Under development; 35 aircraft have been equipped to fly in two major
                   routes off the East Coast
High Altitude Separation Reduction for Gulf of Mexico and East Coast Routes:
Demonstrates the potential to accrue benefits in revenue service in the Gulf of Mexico and along
East Coast offshore routes by reducing separation from 120 nautical miles (10 to 15 minutes in
trail) to 5 nautical miles in non-radar airspace using ADS-B.
United           • Plans to equip 110 aircraft by 2017, with another 136 to follow in later years.
Source: FAA

These demonstration projects should enhance FAA’s ability to better define
ADS-B requirements, determine whether the system will operate as intended, and
achieve desired goals. For the near-term, however, only those airlines and aircraft
participating in the project and funded by FAA will benefit. FAA does not expect
all elements of the current demonstrations to be completed until 2017 or later.

ADS-B OVERALL COSTS, SCHEDULE, AND BENEFITS REMAIN
UNCERTAIN AS FAA CONTINUES PROGRAM IMPLEMENTATION
The final cost and timeline to complete ADS-B implementation and provide
benefits for FAA and airspace users remain uncertain. FAA’s cost and schedule
continue to evolve; for example, FAA has increased its cost estimates for the
                                                                                                                  15


program by approximately $400 million since the original baseline estimate.
Additionally, FAA has approved funds to pay the contractor to broadcast ADS-B
signals at locations that may not be using them, resulting in some potentially
unnecessary costs. Finally, FAA continues to adjust expected ADS-B benefits due
to slower than expected user equipage, and the costs for the current ADS-B
program now outweigh the potential benefits to users.

FAA’s Total Estimated Costs To Fully Implement ADS-B Exceed
Original Estimates
According to FAA, the Agency is funding ADS-B through a segmented approach
to reduce the risk of cost growth and schedule delays, with each segment funded
for a set timeframe. In August 2007, FAA approved $1.68 billion for ADS-B
segments 1 and 2 to deploy the system’s ground infrastructure by 2013 and
implement the initial baseline services and applications by 2014. 24 Five years later,
in May 2012, FAA approved an additional $960 million for a third ADS-B
segment to continue implementing the initial capabilities, which increased the total
cost to $2.7 billion through 2020. 25 While FAA originally reported the Agency
was planning to complete ADS-B implementation in four segments, it is currently
unclear how many segments will be required before ADS-B is fully implemented
and at what cost.

According to ADS-B program officials and our analyses, the increase in estimated
costs for FAA to implement ADS-B baseline services and applications is due to
changes in the program’s scope and requirements. For example:

• FAA required an additional $100 million for ground infrastructure upgrades to
  support ADS-B rule-compliant avionics and to enhance security.
• FAA did not fully capture costs to acquire ADS-B services at nine additional
  airports in the original estimate, resulting in an increase to the cost of
  $116 million.
• FAA added $162 million to budget for the potential of maximum performance
  incentives for the prime contractor through 2025. These incentives will be paid
  via a percentage (up to 7 percent) of contractor fees for ADS-B.



24
   In fiscal year 2008, Congress provided an additional $9.3 million to conduct demonstrations with select industry
partners to assess ADS-B’s capability to provide position indications and alerts to aircraft operating on the airport
surface. Additionally, in fiscal year 2009 Congress provided another $6.8 million to assess ADS-B’s ability to provide
3-nautical-mile separation standards in the en route (high altitude) environment, as well as $13.6 million in funds to
incorporate ADS-B services in Colorado.
25
   This increase includes FAA’s plans to spend $58 million for efforts to expand ADS-B services in the Gulf of Mexico
and to implement an ADS-B In application—designated as In Trail Procedures—which uses ADS-B to improve
situational awareness of flight crews and enables them to perform desired flight level changes on a more frequent basis
in oceanic or non-radar airspace.
                                                                                                                  16


• FAA underestimated the cost to upgrade FAA’s air traffic control automation
  platforms at the five ADS-B key sites, more than doubling the estimated cost
  from about $131 million to over $300 million.

Table 2 lists FAA’s approved funding for key program activities supporting
ADS-B implementation through 2020 and demonstrates how FAA has added costs
to complete these key activities.

Table 2. ADS-B Estimated Costs for Key Program Activities (Dollars
in Millions)
Key Program Activities Supporting                         2007 Baseline 2012 Baseline                           Total
ADS-B Implementation                                   Segments 1 and 2    Segment 3
                                                           FY 2007-2014 FY 2014-2020
Ground infrastructure development                                       $707.9                  $19.4         $727.3
and upgrades
Upgrades to FAA automation                                                305.0                     5.6        310.6
platforms
Avionics development, testing, and                                         45.7                     1.3         47.0
certification for ADS-B Out and
ADS-B In
Operational procedures development                                         40.7                 172.8          213.5
and implementation supporting
ADS-B Out and ADS-B In services
and applications
Subtotal                                                             $1,099.3                 $199.1         $1,298.4
Service Subscription Charges                                              612.1                 761.3         1,373.4
                                                                                a
Total                                                               $1,711.4                  $960.4         $2,671.8
a
 FAA approved $1.68 billion in 2007, and added $30 million in 2011, increasing the total to $1.71 billion.
Source: FAA Program Office


When FAA baselined segment 3, the Agency also updated its estimate for
ADS-B’s total program costs. Currently, FAA estimates that, through fiscal year
2035, the program will cost $4.5 billion—which includes an increase of
$400 million more in baseline services than it estimated in 2007. However,
ongoing adjustments to key program activities raise questions about the reliability
of FAA’s $4.5 billion total estimate for the program. As we previously reported,
FAA’s decision to identify and baseline segments of ADS-B’s development and
implementation as the system matures leaves the Agency with no clear end-state. 26
Further, this approach has allowed the Agency to modify the program’s scope and
requirements, which increases the risk of future cost and schedule growth.


26
   Status of Transformational Programs and Risks To Achieving NextGen Goals (OIG Report Number AV-2012-094),
April 23, 2012.
                                                                                                                     17


FAA May Be Paying for ADS-B Services That Are Not Being Used
A large percentage of FAA’s current ADS-B costs may be for services that are not
yet being used. Specifically, FAA is paying contractor fees to maintain and
broadcast the ADS-B signal, known as service subscription fees. Through 2014,
FAA will have paid the prime contractor over $600 million in service subscription
fees. However, because the rate of user equipage has been lower than the Agency
originally projected, controller and pilot use of ADS-B services has also been
lower than expected. Moreover, the Agency does not plan to update all controller
automation systems to support ADS-B services until 2015 and possibly as late as
2019.

While FAA acknowledges ADS-B use has been and will continue to be limited,
the Agency plans to pay the contractor to maintain and broadcast ADS-B
surveillance services in the contiguous United States, Alaska, and the Gulf of
Mexico in the terminal and en route environments, as well as at 44 airports—
regardless of whether services are being used at all locations. However, the
ADS-B contract contains an option that provides the Agency with the flexibility
not to turn on ADS-B services in locations where there are insufficient users.
Through 2020, FAA approved an additional $760 million in subscription fees
increasing the total to almost $1.4 billion—or 51 percent of the total costs FAA
approved to support ADS-B implementation. FAA plans to pay about $90 million
each year for ADS-B broadcast services, but could potentially save as much as $45
million per year if it only pays for services at locations with updated automation
systems, and where users are equipped to use them. 27

Current Cost Estimates for ADS-B Outweigh Its Benefits
To demonstrate that the benefits of ADS-B avionics outweigh the costs—and
thereby encourage users to equip with these avionics by 2020—FAA generally
conducts a benefit-cost ratio analysis. 28 However, ADS-B’s costs now outweigh
its estimated benefits.

In 2007, FAA estimated ADS-B benefits for FAA and users would total roughly
$7 billion 29 through 2035. However, in 2012, FAA revised the estimate and now
reports that the ADS-B benefits will total about $5.9 billion from 2007 to 2035.
According to FAA, this reduction is due in part to the fact that users are not
purchasing and equipping with ADS-B avionics as quickly as the Agency
originally projected. Table 3 highlights the changes in projections for FAA and
user benefits, with all dollars converted to present value 2012 dollars.

27
   FAA can realize these savings until at least 50 percent of its automation systems have been updated and users equip.
28
   The benefit-cost ratio is determined by dividing the projected benefits of a program by the projected costs. A benefit-
cost ratio is a standard criterion for deciding whether a program should go forward. A ratio of greater than 1 indicates
the program is viable.
29
   Total benefits are adjusted to reflect present value 2012 dollars.
                                                                                                       18


Table 3. Variances in FAA and User Benefits for ADS-B Baseline
Services and Applications (Dollars in Millions)
                                                        Aug 2007a          May 2012a           Variance

FAA Benefits
    Cost avoidance                                          $633.5            $413.0            ($220.5)
    Total FAA Benefits                                      $633.5            $413.0            ($220.5)
User Benefits
    Safety                                                $1,797.5          $2,073.2              $275.7
    Aircraft operator cost savings                         2,962.7           1,720.4            (1,242.3)
    Passenger value of time                                1,643.1           1,643.4                 0.3
    Other benefits                                              36.5            36.6                 0.1
    Total User Benefits                                   $6,439.8          $5,473.6            ($966.2)
Total Benefits                                            $7,073.3          $5,886.6           ($1,186.7)
a
 Numbers are estimated in present value 2012 dollars.
Source: ADS-B Business Manager

While FAA’s cost analysis indicates a positive benefit-cost ratio of 1.2, it does not
factor in program investments made through fiscal year 2013. When factoring in
these sunk costs, the return on investment drops below 1 (see table 4).

Table 4. ADS-B Risk-Adjusted Cost and Benefits in Present Value
Dollars
                                  Without Sunk Costs                       With Sunk Costs
Costs                                              $4,766.5                       $6,577.1
Benefits                                            5,667.8                        5,989.5
Net Cash Flow                                           901.3                      (587.6 )
Benefit/Cost Ratio                                        1.2                          (0.9)
Payback                                                 2032                           NAa
a
 FAA will not recoup its capital investment through ADS-B third segment.
Source: FAA May 2012 SBS Business Case Analysis Report (BCAR)


According to FAA, future ADS-B capabilities will increase the estimated benefits
and restore a positive benefit-cost ratio for the program. For example, the Agency
is pursuing approval for additional ADS-B In applications per the ARC
recommendations. FAA is also investigating a different service provider for
ADS-B to obtain surveillance services specifically in oceanic airspace. FAA
officials expect that these additional applications could significantly increase the
benefit-cost ratio and result in a positive net present value of $1 billion or more
when future segments of the ADS-B program are approved—improving the
                                                                               19


overall business case for ADS-B. However, it is uncertain when future segments
will be approved and how much they will ultimately affect ADS-B’s cost-benefit
ratio.

CONCLUSION
ADS-B is expected to improve safety, capacity, and efficiency in the NAS.
Although FAA has made progress by completing the ground infrastructure, the
Agency has yet to determine what the program will cost, how long it will take to
fully implement, or what capabilities and benefits the system will ultimately
provide air traffic controllers and pilots. Until FAA conducts comprehensive
testing of ADS-B’s overall performance, determines how it will be used to support
new capabilities for managing air traffic in complex and congested airspace, and
establishes future baselines for the total program, the Agency may not be able to
fully justify taxpayers’ and users’ investment in ADS-B.

RECOMMENDATIONS
To ensure ADS-B is operationally suitable, safe to deploy in the NAS, and a viable
program, we recommend that FAA continue to work on our previous
recommendations and take additional actions to:

1. Resolve performance problems identified during FAA’s independent
   operational testing on ADS-B. Also, conduct end-to-end testing of the ADS-B
   system to determine how it can be used by controllers and pilots to safely
   manage and separate traffic in the NAS during all phases of flight.

2. Develop a schedule and plan to expedite the continued development and
   deployment of SBS Monitor and ensure that the system is adequately staffed
   and funded so it can effectively access the performance and integrity of the
   ADS-B system now and as it evolves.

3. Develop and implement a plan to improve communications with the aviation
   community to ensure it understands the intended use of ADS-B services and
   applications being provided, including that ADS-B initial capabilities are for
   advisory use only.

4. Determine when FAA will be in a position to introduce and support ADS-B In
   capabilities for congested airports, and identify the changes that may be
   required for ADS-B ground and air components for using advanced ADS-B In
   capabilities.
                                                                                                               20


5. Develop a clearly defined and expedited schedule for determining the end-state
   for the ADS-B program with cost and schedule baselines, and provide written
   notification to Congress and other decision makers so that they have more
   complete information on the total program cost, schedule, and expected
   services.

6. Determine whether cost savings could be realized by delaying payment of
   subscription fees for ADS-B services at locations where (a) users are not
   equipped with rule-compliant avionics to provide and receive ADS-B services
   at those locations, and (b) air traffic control automation systems have not been
   modernized to support ADS-B services.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA with our draft report on July 28, 2014, and received the
Agency’s formal response on August 22, 2014. FAA’s response is included in its
entirety as an appendix to this report. In its response, FAA stated that it generally
concurs with our recommendations, with the exception of recommendation 6.
However, FAA did not provide specific information on all of its planned actions or
completion dates as requested in our draft report. The Agency stated it will
provide a detailed response to each recommendation at a later date. Therefore,
recommendations 1, 2, 3, 4, and 5, will remain open and unresolved, until FAA
provides further information on its planned actions and completion timeframes.

For recommendation 6, FAA stated it does not concur because the ADS-B contract
does not allow for selective payment or shutdown of selective service volumes. 30
However, as stated in our report, the contract specifically contains an option that
provides FAA with the flexibility to selectively activate ADS-B services at
specific locations. As we reported, this contract option could have the potential to
save the Agency a significant amount of funds until ADS-B is in widespread use at
all locations in the NAS. Therefore, we ask that the Agency reconsider its position
on this recommendation.

ACTIONS REQUIRED
We consider all six recommendations open and unresolved and, in accordance
with DOT Order 8000.1C, we request that FAA provide, within 30 days of this
report, the additional information requested above.



30
     Service volumes are essentially locations (e.g., en route facilities) within which a set of ADS-B Services are
     provided.
                                                                             21


We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please call me at (202)
366-0500 or Kevin Dorsey, Program Director, at (202) 366-1518.

                                       #

cc: DOT Audit Liaison, M-1
    FAA Audit Liaison, AAE-100
                                                                                 22


EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit between May 2012 and July 2014. The audit
was performed in accordance with generally accepted Government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

At the request of the Chairman and Ranking Member of the House Committee on
Appropriations, Subcommittee on Transportation, Housing and Urban
Development and Related Agencies, we examined FAA’s plans and progress to
date for implementing ADS-B. Specifically, our objectives were to assess
(1) FAA’s progress deploying and testing the ADS-B ground system, (2) the
capabilities and benefits ADS-B will provide users; and (3) ADS-B current cost,
schedule, and planned benefits as measured against the original program goals.

To achieve our objectives, we analyzed program documentation, contract data,
budget data, acquisition documents, cost and schedule documents, and other
documentation provided by FAA, to include reviewing FAA’s ADS-B budget and
cost estimates and ADS-B strategy documents for reasonableness and cost
effectiveness.

In addition, we interviewed key FAA and ADS-B program officials at FAA
Headquarters in Washington, DC, and the FAA William J. Hughes Technical
Center in New Jersey, and FAA’s Mike Monroney Aeronautical Center in
Oklahoma City. We also met with and interviewed industry officials, airline
representatives, avionics manufacturers, and other stakeholders. We interviewed
and visited ITT Corporation officials to discuss the status of the system’s
development, installation, and implementation and air traffic controllers at various
facilities across the country, industry officials, avionics manufacturers, and
aviation stakeholders. We also visited and interviewed helicopter operators in the
Gulf of Mexico and met with ADS-B demonstration partner airline
representatives.




Exhibit A. Scope and Methodology
                                                                                                            23


EXHIBIT B. ADS-B OUT AND ADS-B IN APPLICATIONS AND
THEIR STATUS AS OF APRIL 2014
Description                                Goal                                Status as of April 2014
ADS-B Out Services
ATC Surveillance Requires aircraft         To improve safety and               Available to controllers at
and vehicles on the airport surface        increase capacity by allowing       limited air traffic locations
to equip with ADS-B to broadcast           ATC to use ADS-B to assist          and pilots if users are
their identification and position to Air   pilots with navigation, aircraft,   equipped.
Traffic Control (ATC) automation           separation, and to issue safety
systems.                                   alerts and traffic advisories.
Ground-Based Interval             To achieve optimal spacing                   In development, testing
Management Spacing (GIM-S)        intervals between arriving                   schedule at key site in July
Planned capability for ATC En     aircraft.                                    2014. Could be available
Route centers. Automation systems                                              at first site in September
are updated with spacing and                                                   2014.
metering tool, using ADS-B for
optimized profile descents.
ADS-B In Applications

Traffic Situation Awareness—         To enhance pilots’ awareness              Available to pilots if
Basic: Flight crews will use cockpit of other aircraft.                        properly equipped with
displays to increase awareness of                                              ADS-B In avionics.
other aircraft within operational
vicinity
Airport Traffic Situation              To reduce the potential for             Limited availability. Air
Awareness (ATSA): Flight crews will aircraft and surface vehicle               traffic procedures are
use cockpit displays to increase       deviations, errors, &collisions.        required.
awareness of other aircraft/vehicle on
the airport surface.
Visual Separation on Approach:             To assist the flight crew with      Not available. Air traffic
Allows aircraft to perform approach        achieving and maintaining           procedures required.
procedures with its own visual             visual contact with relevant
separation from preceding aircraft.        traffic and maintaining
                                           appropriate distance from the
                                           aircraft ahead of it.
Cockpit Display of Traffic         To enable pilots to determine               Not available. Air traffic
Information Assisted Visual        and maintain safe separation,               procedures are required.
Separation (CAVS): Provides pilots just as in visual separation.
a cockpit display of ADS-B
information improving awareness of
other traffic.
Traffic Situation Awareness with Reduce the risk of airborne-to-               Not available. FAA is
Alerts (TSAA): Provides alerts to      airborne encounters.                    developing performance
General Aviation pilots of conflicting                                         standards for operational
airborne traffic.                                                              use.
Weather and NAS Situation            Enhanced weather information Available to pilots if users
Awareness: Provides weather and for GA pilots.                    are equipped.
other aeronautical information to GA
pilots.
Source: FAA


Exhibit B. ADS- B OUT and ADS-B In Applications and Their Status as
of April 2014
                                                                                                              24


EXHIBIT C. ADS-B IOT&E AND IOA ASSESSMENTS
Location, Date     System                  ADS-B Hazard Examples
Preliminary IOT&E
Houston            Host Computer       • Aircraft targets dropped or not displayed
Mar. 19, 2010      System (replaced by • Partial loss of service due to unscheduled radio station outages
                   ERAM)               • Service processes not clearly defined
Philadelphia       STARS                   • Reinforcement lost, acquired late, or never acquired
May 14, 2010                               • Frequent radio station outage
                                           • Limited G1 hardware capacity to process data
Alaska Center      Wide Area               • Outages to primary power sources
June 18, 2010      Multilateration,        • WAM service availability
                   ADS-B/MEARTS            • Required operational range of ZAN Sector 8 display causes
                                             targets to overlap with SV-178
Louisville         CARTS IIIE              • Reinforcement lost, acquired late, or never acquired
July 16, 2010                              • Target jumps; multiple split targets generated conflict alerts
Combined IOT&E
Key Sites          Integrated Platforms • ADS-B/ARTS IIIE integrated platform not operationally ready at
Sept.10, 2010                             terminal facilities with ADS-B–only coverage areas
                                        • ADS-B/ARTS IIIE fusion tracker integration not operationally
                                          ready for ARTS IIIE terminal facilities
                                        • ADS-B/STARS integrated platform not operationally ready for
                                          terminal facilities (a) with ADS-B-only coverage areas or (b) that
                                          do not and will not rely solely on ADS-B for surveillance
                                        • An operational readiness assessment not required at Houston
                                          because the ADS-B/Host integrated platform will remain an IOC
                                          and not be deployed to another facility
                                        • ADS-B/MEARTS data insufficient to render an operational
                                          readiness assessment
                                        • Insufficient number of equipped aircraft to assess
IOA Follow-Up
Philadelphia,       STARS                  •   Target jumps at I90 (Houston)
Houston                                    •   Conflict alerts longer than actual conflict (Houston)
Terminal facilities                        •   Limited G1 hardware capacity to process data
November 28,                               •   Insufficient number of equipped aircraft to assess
2012
Early IOA
Houston Center     ERAM                    • Radio station status messages and indicators not indicative of
March 1, 2013                                coverage
                                           • Lack of communication coverage for some surveillance areas
                                             could result in reduced ATC services
                                           • Incomplete or inaccurate call signs are displayed on the Main
                                             Display Monitor for some Visual Flight Rules aircraft
                                           • Insufficient number of equipped aircraft to assess
Source: FAA Independent Operational Test and Evaluation and Independent Operational Assessment Reports




Exhibit C. ADS- B IOT&E and IO A Assessments
                                                                                                                25


EXHIBIT D. GENERAL AVIATION PILOT REPORTS OF ADS-B
RELIABILITY AND ACCURACY ISSUES

      Timeframe                                                   Pilot Synopsis


August 2012                Cessna 182 Skylane pilot reports being intercepted by an F16 south of Chicago then
                                                                                                          31
                           informed after landing that he had flown through a Temporary Flight Restriction (TFR)
                           that was shown as expired on his GPS display.

                           Cessna 210 pilot reports inadvertently entering a TFR which apparently moved from its
                           original Notice to Airman position and did not appear on an iPad using Stratus ADS-B In.

                           Cessna 172 Skyhawk instructor with student reports being advised of traffic close behind
                           during approach by ADS-B and elects to perform a go-around. The traffic behind had
                           been cleared for a low approach and apparently had the reporter in sight.
September 2012             Cessna 182 Skylane pilot reports inadvertently entering a TFR established for an air
                           show that was not published as a Notice to Airman and did not appear on an iPad with
                           ADS-B.

                           Houston I90 TRACON Controller voiced concern regarding the weather availability on the
                           STARS displays. The reporter suggested the possibility of displaying ADS-B weather
                           information on the STARS displays.


November 2012              Cleveland TRACON Controller described a loss of separation event, claiming the new
                           "Fusion" radar software sometimes displays inaccurate ground speeds.


December 2012              Two aircraft departed Prescott Arizona, Ernest A. Love Field, Runway 21L in good
                           weather, and one mile apart. The pilots reported that they had a near miss because air
                           traffic control cleared the lead aircraft, then in a left turn, to make a spacing turn resulting
                           in that aircraft turning directly into the second aircraft.


January 2013               A Raleigh-Durham Airport Controller described a developing conflict when radar targets
                           were not accurately tracking, suggesting the FUSED/ADS-B radar was causing the
                           anomaly.

Source: NASA’s ARSR Database




31
  Temporary Flight Restrictions (TFRs): TFR text and graphic reports, prescribes procedures used to obtain, format,
and disseminate information on unanticipated or temporary changes to components of or hazards in the NAS until the
associated aeronautical charts and related publications have been amended.

Exhibit D. General Avi ation Pilot Reports of ADS-B Reliabilit y and
Accuracy Issues
                                                           26


EXHIBIT E. MAJOR CONTRIBUTORS TO THIS REPORT

Name                                    Title

Kevin Dorsey                            Program Director

Joseph Hance                            Project Manager

Katrina Knight                          Senior Auditor

Melissa Pyron                           Senior Auditor

Won Kim                                 Senior Auditor

Audre Azuolas                           Writer/Editor




Exhibit E. Major Contributors to This Report
APPENDIX. AGENCY COMMENTS                                                               27




                    Federal Aviation
                    Administration

Memorandum
Date:      August 22, 2014
To:        Matthew E. Hampton, Assistant Inspector General for Aviation Audits
From:      H. Clayton Foushee, Director, Office of Audit and Evaluation, AAE-1
Subject:   Federal Aviation Administration’s Response to Office of Inspector General Draft
           Report: ADS-B Benefits Are Limited Due to a Lack of Advanced Capabilities and
           Delays in User Equipage


The Federal Aviation Administration (FAA) recently achieved a major milestone by completing
the ADS-B ground station infrastructure nationwide and ahead of schedule. The implementation
of services at the 24 enroute and offshore sites, 159 terminal sites, and 44 surface advisory sites
is also progressing on schedule. As implementation progresses in more areas, culminating in
nationwide coverage, controllers will be able to accommodate increasingly greater traffic
volumes, delays will be significantly reduced, and significant fuel savings and accompanying
environmental benefits will be achieved.

The FAA has reviewed the draft report and offers the following comments in response to the
Office of Inspector General’s findings and recommendations:
        • Surveillance and Broadcast Services (SBS) monitor development and deployment is
          planned. In addition, the program has asked an independent party to conduct an
          assessment of recent outages.
        • The Agency is always working to make further improvements, current outreach
          activities provide communications with the aviation community to ensure that it
          understands the intended use of ADS-B services and applications being provided.
        • The FAA has increased the availability of service and expanded coverage, as planned
          in the baseline. The dependency upon avionics is driven by the timetables established
          in the rule on mandatory equipage, and more benefits would be apparent if operators
          chose to equip early. The FAA cannot require operators to equip until 2020.
        • ADS-B cost and schedule baselines will be revisited periodically as the program
          returns to the Joint Resources Council as each baseline segment expires.

Upon preliminary review of the draft report, the FAA generally concurs with most of the
recommendations except number six. The FAA does not concur with this recommendation
because the contract does not allow for selective payment or shutdown of selective service

Appendix. Agency Comments
                                                                                      28


volumes at the locations suggested and based upon aircraft equipment. The FAA’s Service
Contract does afford us the opportunity to consider modification of service volumes and
availability to fit any evolving need of the agency. The Agency will provide a detailed response
to each recommendation after the publication of the final report.

We appreciate this opportunity to offer additional perspective on the OIG draft report. Please
contact H. Clayton Foushee at (202) 267-9000 if you have any questions or required additional
information about these comments.




Appendix. Agency Comments
